                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




              Audit Report

Fiscal Year 2004 Federal Information Security
          Management Act Report




                                Report No. 50501-1-FM
                                        October 2004
Executive Summary
Fiscal Year 2004 Federal Information Security Management Act Report

Results in Brief                     This report presents the results of our audit of the Department’s efforts to
                                     improve the management and security of its information technology (IT)
                                     resources. Fieldwork for this audit was performed at the Department Office
                                     of the Chief Information Officer (OCIO) and three selected agencies. In
                                     addition, we included the results of (1) IT control testing performed by
                                     contract auditors at three additional agencies, (2) our most recent application
                                     control reviews, and (3) our general controls reviews at the Department’s two
                                     data centers. In total, our report is based on our reviews at 12 agencies
                                     conducted from October 2003 through August 2004. The OCIO annually
                                     reports on compliance with the Federal Information Security Management
                                     Act (FISMA) as of September 30 and, in some cases such as computer
                                     security awareness training and system certification and accreditation,
                                     completes, or documents the completion of, a significant amount of the
                                     required actions in the month of September. As such, the Department and its
                                     agencies may have implemented controls or completed corrective actions
                                     that, due to the timing of our fieldwork, may not be reflected in this report.

                                     Historically, U.S. Department of Agriculture (USDA) agencies and
                                     departmental staff offices have independently addressed their respective IT
                                     security and infrastructure needs. This resulted in a broad array of technical
                                     and physical solutions that did not provide assurance that Department-wide
                                     security was obtained. The efforts of OCIO and the Office of Inspector
                                     General (OIG) in the past few years have heightened program management’s
                                     awareness of the need to plan and implement effective IT security. The
                                     Department and its agencies should be commended for their efforts during
                                     the year toward completion of the certification and accreditation of their
                                     systems; however, we still found significant weaknesses in the Department’s
                                     security program that can be attributed to management’s lack of commitment
                                     to implementing an effective security program within their respective
                                     agencies. USDA management must remain involved and committed toward
                                     implementing an effective security program within the Department. Both the
                                     OCIO and OIG reported the lack of agency management involvement as a
                                     material weakness in prior FISMA1 reports. This is the third year we have
                                     reported this issue as a material weakness. Agency managers are ultimately
                                     responsible and should be held accountable for committing the appropriate
                                     resources to ensure compliance.

                                     The Department and its agencies have made progress in addressing the lack
                                     of compliance with the Office of Management and Budget (OMB) Circular
                                     A-130, Appendix III, but weaknesses continue to exist. Specifically, OIG

1
    FISMA superseded the Government Information Security Reform Act that expired in November 2002.

USDA/OIG-A/50501-1-FM                                                                                        Page i
                   found that (1) the Department was still unable to produce a reliable inventory
                   of applications and general support systems, (2) not all documents produced
                   through the agencies’ certification and accreditation processes complied with
                   OMB and other Federal requirements, and (3) a significant majority of the
                   Department’s applications were not certified until near the end of the fiscal
                   year.

                   Despite the Department’s site license for vulnerability scanning software and
                   a formal scanning policy, the agencies have not been timely in identifying
                   and correcting known and exploitable vulnerabilities in their systems. The
                   agencies we reviewed cited varying reasons for not performing vulnerability
                   scans, including a lack of training and guidance on how to use the tools, and a
                   lack of formal policies and procedures in place to periodically use the tools
                   and mitigate the identified vulnerabilities.        As a result, significant
                   vulnerabilities go undetected and uncorrected, increasing the risk that
                   attackers, both internal and external, could compromise mission-critical IT
                   resources and data.

                   Further, we again identified access control weaknesses in every agency
                   reviewed. This occurred because agencies did not have policies and
                   procedures in place to (1) timely remove user accounts when no longer
                   needed, (2) periodically reconcile user accounts to current employees and
                   contractors, and (3) assign users only those permissions needed to perform
                   their job responsibilities. We also found inadequate controls over the
                   physical access to computer systems and critical network components in 6 of
                   the 12 agencies reviewed. As a result, there is reduced assurance that
                   agencies can effectively protect their mission-critical systems and data from
                   unauthorized modification, disclosure, loss, or impairment.

                   Finally, in the past several years, OCIO has strengthened its oversight of
                   agencies’ security programs; however, improvements could be made which
                   would significantly strengthen the Department’s security posture.
                   Specifically, OCIO needs to (1) formalize its tracking system for USDA
                   cyber security incidents to ensure timely followup and resolution, and (2)
                   increase the number and frequency of its agency reviews. We found that
                   OCIO’s current method of tracking security incidents is not effective in
                   ensuring that agencies timely and adequately followup on security incidents.
                   Further, despite continual requests for additional resources, OCIO
                   acknowledges that it has not had the significant resources it needs to increase
                   its review and enforcement efforts over agencies’ security programs. Despite
                   its efforts over the past several years, OCIO’s inability to strengthen its
                   oversight and enforcement role has hindered its ability to effectively manage
                   the Department’s security program.




USDA/OIG-A/50501-1-FM                                                                      Page ii
Recommendation
In Brief           This report presents the results of our audit work in assessing the security
                   over the Department’s IT resources. The recommendations we made to
                   correct the deficiencies identified in this evaluation are made in agency
                   reports. Therefore, we are not making additional recommendations related to
                   those conditions in this report. We have, however, recommended that the
                   OCIO (1) establish guidance in identifying systems within the Department
                   and its agencies; and (2) implement a formal tracking system for cyber
                   security incidents to ensure the timely followup, resolution, and reporting of
                   those incidents.


Agency Response    OCIO agreed with many of the findings and one recommendation in the
                   report. OCIO disagreed with OIG’s methodology of preparing this report,
                   which uses the results of its audits conducted throughout the year without
                   acknowledging the final set of achievements made at year-end. OCIO
                   acknowledged that security weaknesses continue to exist, but stated that
                   action plans are being developed to eliminate these weaknesses. Such actions
                   will continue throughout the coming year. OCIO’s response to the official
                   draft has been included in its entirety as exhibit B of this report.


OIG Position       OIG recognizes that differences will occur due to the methodologies used in
                   preparing the two reports. However, the scope of our audit and the time
                   needed to effectively evaluate the status of the Department’s security
                   program do not allow us to perform extensive audit work at fiscal year-end.
                   OIG further recognizes that achievements were made during the last month of
                   the fiscal year and that OCIO and the agencies have plans to continue their
                   efforts in improving the Department’s IT security position.




USDA/OIG-A/50501-1-FM                                                                    Page iii
Abbreviations Used in This Report



AMS            Agricultural Marketing Service
APHIS          Animal and Plant Health Inspection Service
BIA            Business Impact Analysis
CCC            Commodity Credit Corporation
CIO            Chief Information Officer
CSREES         Cooperative State Research Education and Extension Service
DA             Departmental Administration
DR             Departmental Regulation
FIPS           Federal Information Processing Standards Publication
FISMA          Federal Information Security Management Act
FISCAM         Financial Information System Control Audit Manual
FSA            Farm Service Agency
FS             Forest Service
FSIS           Food Safety and Inspection Service
FY             Fiscal Year
GAO            Government Accountability Office (formerly the General Accounting Office)
GISRA          Government Information Security Reform Act
GSS            General Support System
HSPD           Homeland Security Presidential Directive
ISSPM          Information System Security Program Manager
IT             Information Technology
IG             Inspector General
LAN            Local Area Networks
NFC            National Finance Center
NIST           National Institute of Standards and Technology
NITC           National Information Technology Center
NRCS           Natural Resources Conservation Service
OCIO           Office of the Chief Information Officer
OMB            Office of Management and Budget
OIG            Office of Inspector General
PED            Personal Electronic Devices
PKI            Public Key Infrastructure
POA&M          Plan of Actions and Milestones
RMA            Risk Management Agency
SP             Special Publication
TCP/IP         Transmission Control Protocol/Internet Protocol
US-CERT        United States Computer Emergencies Readiness Team
USDA           U.S. Department of Agriculture




USDA/OIG-A/50501-1-FM                                                                  Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Management Commitment Needed for an Effective Security Program................... 4

        Finding 1             Management Involvement and Commitment is Needed to Ensure a
                              Successful and Effective Security Program ............................................................ 4

    Section 2. OMB and FISMA Compliance ..................................................................................... 7

        Finding 2             Progress is Made, but Noncompliance with Federally Mandated IT Security
                              Requirements Continues ......................................................................................... 7
                                  Recommendation No. 1.................................................................................. 13
        Finding 3             Agencies Are Not Vigilant in Identifying and Mitigating System
                              Vulnerabilities ....................................................................................................... 14
        Finding 4             Access Controls Continue to be a Significant Weakness in the Department........ 15
        Finding 5             Improvements in OCIO’s Oversight Role would Benefit the Department ........... 17
                                  Recommendation No. 2.................................................................................. 20

Scope and Methodology........................................................................................................................ 21

Exhibit A – OMB Reporting Requirements and OIG Position ........................................................ 22
Exhibit B – OCIO’s Response to the Draft Report............................................................................ 37




USDA/OIG-A/50501-1-FM                                                                                                                         Page v
Background and Objectives
Background         Improving the overall management and security of information technology
                   (IT) resources should be a top priority in the U.S. Department of Agriculture
                   (USDA). As technology has enhanced the ability to share information
                   instantaneously among computers and networks, it has also made
                   organizations more vulnerable to unlawful and destructive penetration and
                   disruption. Insiders with malicious intent, recreational and institutional
                   hackers, and attacks by intelligence organizations of other countries are just a
                   few of the threats that pose a risk to the Department’s critical systems and
                   data.

                   On December 17, 2002, the President signed into law the E-Government Act
                   (P.L. 107-347), which includes Title III, the Federal Information Security
                   Management Act (FISMA).            FISMA permanently reauthorized the
                   framework laid out in the Government Information Security Reform Act
                   (GISRA) of 2000, which expired in November 2002. FISMA continues the
                   annual review and reporting requirements introduced in GISRA. In addition,
                   FISMA includes new provisions aimed at further strengthening the security
                   of the Federal Government’s information and information systems, such as
                   the development of minimum standards for agency systems. The National
                   Institute of Standards and Technology (NIST) has been tasked to work with
                   agencies in the development of those standards per its statutory role in
                   providing technical guidance to Federal agencies.

                   The Act supplements information security requirements established in the
                   Computer Security Act of 1987, the Paperwork Reduction Act of 1995, and
                   the Clinger-Cohen Act of 1996, and is consistent with existing information
                   security guidance issued by the Office of Management and Budget (OMB)
                   and NIST. Most importantly, however, the provisions consolidate these
                   separate requirements and guidance into an overall framework for managing
                   information security and establish new annual reviews, independent
                   evaluation, and reporting requirements to help ensure agency implementation
                   and both OMB and congressional oversight.

                   The legislation assigned specific responsibilities to OMB, agency heads,
                   Chief Information Officers (CIO), and Inspectors General (IG). OMB is
                   responsible for establishing and overseeing policies, standards, and
                   guidelines for information security. This includes the authority to approve
                   agency information security programs. OMB is also required to submit an
                   annual report to Congress summarizing results of agencies’ evaluations of
                   their information security programs.

                   Each agency must establish an agency-wide risk-based information security
                   program to be overseen by the agency CIO and ensure that information


USDA/OIG-A/50501-1-FM                                                                       Page 1
                   security is practiced throughout the lifecycle of each agency system.
                   Specifically, this program must include:

                        •   Periodic risk assessments that consider internal and external threats
                            to the integrity, confidentiality, and availability of systems, and to
                            data supporting critical operations and assets;

                        •   development and implementation of risk-based, cost-effective
                            policies and procedures to provide security protections for
                            information collected or maintained by or for the agency;

                        •   training on security responsibilities for information security
                            personnel and on security awareness for agency personnel;

                        •   periodic management testing and evaluation of the effectiveness of
                            policies, procedures, controls, and techniques;

                        •   a process for      identifying   and   remediating   any   significant
                            deficiencies;

                        •   procedures for detecting, reporting, and responding to security
                            incidents; and

                        •   an annual program review by agency program officials.

                   In addition to the responsibilities listed above, the Act requires each agency
                   to have an annual independent evaluation of its information security program
                   and practices, including control testing and compliance assessment. The
                   evaluations are to be performed by the agency IG or an independent
                   evaluator, and the results of these evaluations are to be reported to OMB.

Objectives         The audit objective was to form a basis for conclusion regarding the status of
                   USDA’s overall IT Security Program by:

                        •   Evaluating the effectiveness of the Office of the Chief Information
                            Officer’s (OCIO) oversight role of agency CIOs and FISMA
                            compliance;

                        •   determining whether agencies have maintained an adequate system
                            of internal controls over IT assets in accordance with FISMA and
                            other appropriate laws and regulations;

                        •   evaluating the OCIO’s progress in establishing a Department-wide
                            security program;



USDA/OIG-A/50501-1-FM                                                                      Page 2
                        •   assessing the corrective action taken by selected agencies on
                            previously identified control weaknesses; and

                        •   evaluating the agency and OCIO’s Plan of Actions and Milestone
                            (POA&M) consolidation and reporting process.




USDA/OIG-A/50501-1-FM                                                               Page 3
Findings and Recommendations
Section 1.   Management Commitment Needed for an Effective Security Program




Finding 1            Management Involvement and Commitment is Needed to Ensure
                     a Successful and Effective Security Program

                     While progress has been made, we have reported for the third year in a row
                     that agency management needs to demonstrate involvement and commitment
                     to ensure the ultimate success of their security programs. We believe that
                     this lack of involvement and commitment continues to be a material
                     weakness in achieving an effective security program within the Department,
                     and remains an impediment to ensuring that its security programs are
                     adequately designed and properly carried out. The Department and its
                     agencies should be commended for their efforts during the year toward
                     completion of the certification and accreditation of its systems; however, we
                     still found significant weaknesses in the Department’s security program that
                     can be attributed to management’s lack of commitment to implementing an
                     effective security program within their respective agencies. Specifically, they
                     cannot ensure compliance with OMB Circular A-130 requirements (see
                     Finding No. 2) that security vulnerabilities are timely identified and mitigated
                     (see Finding No. 3), and that adequate physical and logical access controls
                     are in place (see Finding No. 4). These requirements are longstanding and
                     the lack of adherence has been reported previously by the Office of Inspector
                     General (OIG). Agency managers are ultimately responsible and should be
                     held accountable for committing the appropriate resources to ensure
                     compliance.

                     NIST Special Publication (SP) 800-12 states that, “A natural tension often
                     exists between computer security and operational elements. In many
                     instances, operational components – which tend to be far larger and therefore
                     more influential – seek to resolve this tension by embedding the computer
                     security program in computer operations. The typical result of this
                     organizational strategy is a computer security program that lacks
                     independence, has minimal authority, receives little management attention,
                     and has few resources. As early as 1978, the Government Accountability
                     Office (GAO) identified this organizational mode as one of the principal
                     basic weaknesses in Federal agency computer security programs.”

                     Departmental Regulation (DR) 3140-1, “USDA Information System Security
                     Policy,” dated May 15, 1996, states that agencies should assign the
                     Information System Security Program Manager (ISSPM) to a level within the
                     organization that can independently report to the appropriate program and/or
                     departmental officials. The ISSPM must be able to assure security across the
USDA/OIG-A/50501-1-FM                                                                         Page 4
                   entire agency’s programs. Further, OMB Circular A-123, “Management
                   Accountability and Control,” dated June 21, 1995, requires agencies to ensure
                   that appropriate authority, responsibility, and accountability are defined and
                   delegated to accomplish the mission of the organization, and that an
                   appropriate organizational structure is established to effectively carry out
                   program responsibilities.

                   During the fiscal year, the Department’s CIO implemented a Department-
                   wide initiative to certify and accredit all major applications and general
                   support systems (see Finding No. 2), a major component of compliance with
                   OMB Circular A-130, Appendix III. While this effort is far from complete,
                   the Department’s accomplishments in this effort might not have been
                   obtained if left solely to the discretion of individual agency management.
                   Despite the longstanding requirements of OMB Circular A-130, agency
                   managers have been reluctant to comply without the guidance and emphasis
                   of the Department’s CIO.

                   Last year we reported a common symptom of a lack of management
                   involvement was that agency security personnel have not been given the
                   authority needed to effectively implement and manage their agency’s security
                   programs. Our followup reviews in fiscal year 2004 continue to show that
                   agency security personnel alone have not been able to ensure compliance
                   with Federal IT security guidelines. The same weaknesses we previously
                   reported, such as access control weaknesses and vulnerability mitigation, still
                   existed in all 12 agencies. In addition, despite our recommendations, some
                   agencies have not realigned their CIOs and ISSPMs within their
                   organizations or emphasized their oversight and enforcement authority
                   sufficient to implement the agency’s security program. The following
                   examples illustrate some of the continued weaknesses we identified.

                        •   Our review at one agency found material internal control weaknesses
                            in the area of access controls and application change controls for the
                            second year in a row. While the agency took action to correct the
                            specific problems we identified, it failed to address the underlying
                            internal control weakness. Further, despite our recommendations, the
                            agency had not taken sufficient actions to address the weaknesses we
                            identified in its organizational structure and oversight of contractor
                            personnel.

                        •   The CIO for another agency lacked the authority to ensure that the
                            agency’s security program was operating effectively. Specifically,
                            the CIO was unable to (1) provide us a list of users on all agency
                            systems, (2) identify all contractors and whether or not they received
                            security-related training, or (3) identify all staff within the agency that
                            had significant IT security responsibilities. Further, the CIO was not
                            aware that a POA&M had been completed for one of the agency’s
                            systems.

USDA/OIG-A/50501-1-FM                                                                          Page 5
                   Unlike the other issues in this report, we do not believe the weakness in this
                   finding can be corrected by policy or guidance issued by the Department
                   OCIO. Only after agency managers demonstrate their commitment to
                   ensuring compliance with OMB Circular A-130 and other federally mandated
                   security guidelines, will an effective Department-wide security program be
                   achieved. The issues raised in this report have been reported in specific
                   agency reports. Therefore, we make no additional recommendations herein.




USDA/OIG-A/50501-1-FM                                                                     Page 6
Section 2.            OMB and FISMA Compliance

                                      The Department and its agencies have made significant progress toward
                                      accomplishing compliance with OMB Circular A-130 and other federally
                                      mandated security requirements; however, not all of the Department’s
                                      agencies were fully compliant. This is our fourth report in 4 years where we
                                      have reported this weakness, and the third year that we have noted that
                                      management involvement and commitment remains a material weakness
                                      toward ensuring compliance and improving IT security. Management’s
                                      challenge is to ensure that every IT system deployed and managed by the
                                      Department complies with major security disciplines required by Federal law
                                      and guidance. While most agency security staffs have done what they can,
                                      many of the issues we raised will not be corrected until agency management
                                      commits the needed resources. The Department heavily relies on hundreds of
                                      information systems operated within USDA to deliver its programs and meet
                                      its missions. The weaknesses we continue to report jeopardize the
                                      confidentiality, integrity, and availability of these resources.




Finding 2                             Progress is Made, but Noncompliance with Federally Mandated IT
                                      Security Requirements Continues

                                      The Department and its agencies have made progress in addressing the lack
                                      of compliance with OMB Circular A-130, Appendix III, but weaknesses
                                      continue to exist. Specifically, we found that (1) the Department was still
                                      unable to produce a reliable inventory of applications and general support
                                      systems (GSS), (2) not all documents produced through the agencies’
                                      certification and accreditation processes complied with OMB and other
                                      Federal requirements, and (3) a significant majority of the Department’s
                                      applications were not certified until near the end of the fiscal year.2 OIG
                                      continues to identify weaknesses within the agencies and the lack of
                                      management’s demonstrated commitment and involvement remains a key
                                      barrier to compliance (see Finding No. 1). Agency managers are ultimately
                                      responsible for ensuring that their agencies comply with laws and regulations
                                      governing IT management and security. The fact that these weaknesses have
                                      been reported for 4 years indicates that management has not yet established
                                      adequate controls or committed the appropriate resources to ensure
                                      compliance. The Department and its agencies rely on their IT infrastructures
                                      and systems to issue billions of dollars in payroll, loans, and entitlement
                                      benefits; supply market-sensitive data on commodities to the agricultural
                                      economy; and manage consumer protection programs. The Department’s


2
  The fact that most agencies did not have certification and accreditation in place for a majority of the fiscal year makes them, as a whole, materially non-
complaint with OMB A-130 for the fiscal year.

USDA/OIG-A/50501-1-FM                                                                                                                             Page 7
                                       ability to accomplish its mission could be jeopardized if it does not properly
                                       manage and secure its IT infrastructure.

                                       The foundation for security over IT resources is found in OMB Circular A-
                                       130, Appendix III, “Security of Federal Automated Information Resources.”
                                       This Circular establishes a minimum set of controls for agencies’ automated
                                       information security programs, including certifying to the security of any
                                       systems that maintain sensitive data; establishing contingency plans and
                                       recovery procedures in the event of a disaster; providing security awareness
                                       training to employees and contractors; and establishing a comprehensive
                                       security plan. Homeland Security Presidential Directive (HSPD) – 7,
                                       “Critical Infrastructure Identification, Prioritization, and Protection,” dated
                                       December 17, 2003, requires agencies to identify, prioritize, assess,
                                       remediate, and protect their internal critical infrastructure and key resources.

                                       In December 2002, FISMA3 permanently reauthorized the framework laid
                                       out in the GISRA which expired in November 2002, and establishes NIST as
                                       the authority for establishing technical guidance for the Federal Government.
                                       OMB guidance for implementing these laws lays out a framework that
                                       contains timeframe requirements and procedures for annual IT security
                                       reviews, reporting, and remediation planning for Federal agencies.

                                       Inventory of Applications and General Support Systems

                                       The Department still does not have a reliable inventory of applications and
                                       GSS from which to manage Department-wide IT security. The Department
                                       relies on agencies to provide a comprehensive list of their major applications
                                       and GSS systems; however, the OCIO has been unable to verify the accuracy
                                       or reliability of those agency-provided inventories. As a result, the OCIO
                                       cannot be assured that all systems are properly accredited. Further, we
                                       question how the OCIO can properly manage a Department-wide security
                                       program without an accurate inventory of all agency applications and GSS
                                       systems.

                                       As part of its Year 2000 conversion efforts, the Department identified a list of
                                       mission-critical applications. OCIO officials acknowledged that this initial
                                       list was incomplete mainly due to the lack of understanding across all
                                       agencies of what constituted a “system.” In fiscal year 2004, in preparation
                                       for our nationwide audit for application controls, we selected seven systems
                                       from the OCIO’s list of major applications dated December 2003. Our
                                       review disclosed that three of the seven applications we selected were
                                       scheduled to be replaced or would no longer be used by the end of the fiscal
                                       year, one application was in the initial stages of development and therefore
                                       not far enough along for the certification process, and one system was an ad
                                       hoc database containing historical data no longer used by the agency but

3
    The Electronic Government Act, Title III, signed into law December 17, 2002.

USDA/OIG-A/50501-1-FM                                                                                           Page 8
                   “scheduled” to be brought back on-line sometime during the year. Further,
                   we noted that between December 2003 and August 20, 2004, OCIO provided
                   us with at least 4 different lists of systems or certification progress updates
                   showing the total number of departmental systems ranging between 594 and
                   460. OCIO officials acknowledged that the Department’s inventory of
                   systems had evolved throughout the year, and will continue to do so;
                   however, officials informed us that through their work with the agencies
                   during the certification and accreditation process, the current list of
                   departmental systems represents an improvement over prior efforts.

                   While we agree that OCIO’s current list of systems provides a starting point,
                   we believe that the errors we found support the need to have a well-
                   established definition of “system” and reasonable assurance that agencies are
                   reporting their systems in accordance with that definition. Further, we
                   believe that the OCIO needs to be fully aware of all applications and GSS
                   that reside on the Department’s network to ensure that agencies are in
                   compliance with OMB and FISMA requirements, and to effectively manage
                   its security program.

                   Risk Assessments

                   Agencies reviewed during fiscal year 2004 had not adequately assessed the
                   risk to their mission-essential IT resources. OMB A-130 requires a risk-
                   based approach to security and consistent with FISMA, HSPD – 7 requires
                   agencies to identify, prioritize, and coordinate the protection of critical
                   infrastructure and key resources in order to prevent, deter, and mitigate the
                   effects of deliberate efforts to destroy, incapacitate, or exploit them.
                   Additionally, according to NIST SP 800-34, business impact analysis (BIA)
                   helps to fully characterize system requirements, processes, and
                   interdependencies and use this information to determine contingency
                   requirements and priorities. The BIA’s purpose is to correlate specific
                   system components with the critical services they provide, and based on that
                   information, to characterize the consequences of a disruption to the system
                   components. Hence, the BIA needs to be completed to aid in the adequate
                   completion of various certification and accreditation documents.

                   One agency we reviewed performed risk assessments for only two of its
                   seven mission-critical systems. Further, one of the two risk assessments had
                   very little detail and followed, generically, the outline suggested in NIST
                   guidance. The agency’s CIO informed us that the various divisions of the
                   agency maintained their own systems and the CIO did not have the resources
                   or enforcement authority over those divisions to ensure compliance with
                   Federal guidelines. Based on the results of our audit, the certification and
                   accreditation documents produced by the agency’s contractor were sent back
                   for revisions.



USDA/OIG-A/50501-1-FM                                                                      Page 9
                   Two other agencies did not evaluate their security policies based on the
                   identified risks, nor had they taken any actions to eliminate or otherwise
                   mitigate the identified risks. Agency officials informed us that a different
                   contractor prepared its risk assessments, and that agency officials did not
                   ensure that the information was communicated to the contractor preparing the
                   security plan.

                   Security Plans

                   Agencies still had not prepared all required security plans, or ensured that the
                   plans adequately addressed all requirements of OMB Circular A-130 and
                   other Federal security guidance. OMB requires agencies to prepare a security
                   plan to provide an overview of the security requirements of their major
                   applications and GSS. Security plans should define who has responsibility
                   for system security, who has authority to access the system, appropriate limits
                   on interconnectivity with other systems, and security training of individuals
                   authorized to use the system.

                   One of the agencies we reviewed had not completed security plans for its
                   telecommunications network, which included its routers, firewalls, and
                   intrusion detection system. OMB requires security plans for GSS since these
                   systems provide interconnectivity among systems and provide the first level
                   of security controls to protect the confidentiality, integrity, and availability of
                   other systems. In many cases, the GSS provides the only security for non-
                   critical applications. The agency recognized that these actions need to be
                   completed and has identified them in its POA&Ms. Agency officials stated
                   that meeting the requirements involves major effort and requires time and
                   resources to comply thoroughly.

                   At another agency, we found that the agency had accepted inadequate
                   security plans from its contractor. We found that the agency had recently
                   made significant changes to its GSS; however, the security plan provided by
                   the contractor did not (1) reflect the current operating environment, (2)
                   identify the system owner, or (3) identify the security officer responsible for
                   the system. At a third agency, the security plans lacked essential information
                   such as interconnectivity with other systems, physical security standards and
                   enforcement, and the training requirements necessary for the users of the
                   system.

                   Until security plans are completed for all major applications and GSS, the
                   Department cannot be assured that it has adequately addressed its security
                   needs and that its security policies and practices have become an integral part
                   of its operations.




USDA/OIG-A/50501-1-FM                                                                        Page 10
                                      Contingency/Disaster Recovery

                                      Agencies we reviewed had not prepared contingency and disaster recovery
                                      plans, or ensured that their disaster recovery plans were executable. Despite
                                      the longstanding requirement in OMB Circular A-130 that agencies prepare
                                      and test contingency plans, agencies still have not addressed this critical step.
                                      OMB also states that contingency plans should be tested, as untested or
                                      outdated contingency plans create a false sense of the ability to recover in a
                                      timely manner. NIST SP 800-12, “An Introduction to Computer Security,”
                                      Section 11.6, states a contingency plan should be tested periodically because
                                      there will undoubtedly be flaws in the plan and in its implementation.
                                      Furthermore, the plan will become dated as time passes and as the resources
                                      used to support critical functions change. Additionally, NIST4 requires a BIA
                                      to help fully characterize system requirements, processes, and
                                      interdependencies and use this information to determine contingency
                                      requirements and priorities. The BIA’s purpose is to correlate specific
                                      system components with the critical services they provide, and based on that
                                      information, to characterize the consequences of a disruption to the system
                                      components.

                                      One agency had prepared a contingency plan for only one of its seven major
                                      applications, and this plan had not been tested. Even though this agency’s
                                      systems affected the safety of all Department employees, the agency did not
                                      consider disaster recovery planning a priority. Furthermore, the agency had
                                      not planned on testing its one disaster recovery plan because it believed that
                                      the Department’s CIO was responsible for conducting this testing.

                                      Our review of one major application contingency plan at another agency
                                      found that the agency had begun to identify and prioritize critical data and
                                      operations, determine the resources needed to support those operations, and
                                      establish emergency priorities. However, we found that the agency’s staff
                                      had not been trained in how to implement the contingency plan in the event
                                      of an emergency. Further, the contingency plan we reviewed was still under
                                      development because the BIAs had not been finalized and reviewed by
                                      management.

                                      Three agencies did not have disaster recovery plans in place that were
                                      sufficiently comprehensive to ensure adequate recovery of their applications
                                      in the event of a major disruption. Agency officials indicated that they were
                                      relying on the certification and accreditation process to ensure that their
                                      contingency and disaster recovery plans were adequately tested.

                                      Without effective, executable plans for the Department’s major applications
                                      and GSS, it cannot be assured that it will be able to continue delivery of its
                                      programs and meet its missions. Department CIO officials informed us that

4
    NIST SP 800-34, “Contingency Planning Guide for Information Technology Systems,” dated June 2002.

USDA/OIG-A/50501-1-FM                                                                                         Page 11
                                  they are planning an initiative to assist agencies in the preparation and testing
                                  of contingency and disaster recovery plans.

                                  System Certification, Accreditation, and Authorization

                                  At the time of our fieldwork, the agencies we reviewed had not completed
                                  system certifications and accreditations on their major applications or GSS.
                                  Agencies’ officials have informed us that they are completing the
                                  certifications in accordance with the Department’s directives and intend to
                                  have this process completed by September 30, 2004.5 This process, required
                                  by OMB Circular A-130 and emphasized in NIST SP 800-37,6 requires
                                  agencies to (1) document significant security controls within the system, (2)
                                  perform an independent accreditation of the effectiveness of those controls,
                                  and (3) formally approve, with signature authority by program management,
                                  use of the system in the production environment. Despite the longstanding
                                  requirement by OMB to complete this certification and accreditation process
                                  prior to system implementation, the requirement has been largely ignored and
                                  not enforced. Department CIO officials have informed us that they are
                                  committed to ensuring that the certification and accreditation process is fully
                                  implemented into every agency’s system development lifecycle process.

                                  Security Awareness and Training

                                  We found that agencies had processes and resources in place to provide their
                                  employees with security awareness training, and that system and network
                                  administrators have a means to acquire specialized training relating to their
                                  responsibilities; however, they had not established adequate controls to
                                  ensure all employees received the necessary training. OMB Circular A-130
                                  requires agencies to ensure that all individuals are appropriately trained in
                                  how to fulfill their security responsibilities before allowing them access to the
                                  system, and that persons with significant responsibilities over systems be
                                  provided training commensurate with their responsibilities. Further, DR-
                                  3140-1 states agency security programs are to ensure that all employees and
                                  contractors receive annual security awareness training. While all agencies we
                                  reviewed had offered some type of training related to security, the agencies
                                  did not ensure that every employee received the training. For example:

                                       •    In one agency, we found that only about 51 percent of the employees
                                            took security awareness training. Additionally, the agency could not
                                            provide an up-to-date listing of contractors, contractor training, or
                                            contractor background checks because no controls had been put into
                                            place to track these individuals.



5
 OCIO Officials have revised the target date for completing certification and accreditation to the end of calendar year 2004.
6
 NIST SP 800-37, dated May 2004, replaced Federal Information Processing Standards Publication (FIPS) 102, “Guidelines for Computer Security
Certification and Accreditation,” dated September 27, 1983. FIPS 102 discusses these issues in Sections 1.5.2, 2.7, and 2.7.3.

USDA/OIG-A/50501-1-FM                                                                                                            Page 12
                        •   Another agency provided a list of 351 system administrators, but
                            could produce documentary support that only 65 had received
                            specialized training relating to their responsibilities. While the
                            agency recognized the need for specialized training for its system
                            administrators, the agency made the training voluntary rather than
                            mandatory.

                   The Department established an enterprise-wide security awareness-training
                   program through which all agencies have participated. This system allows
                   agencies to track those individuals that have received the required training.
                   Since most agencies within the Department emphasize the need for this
                   training toward the end of the fiscal year we have not validated whether all
                   agencies have completed this training for the current year.

                   Despite the significant emphasis placed on certification and accreditation, the
                   Department and its agencies still have significant progress to make before it
                   has fully complied with OMB and other Federal IT security requirements. It
                   is OIG’s opinion that the progress made to date would not have occurred
                   without the commitment of the Department’s OCIO. However, as reported
                   elsewhere in this report, agencies are ultimately responsible for the security
                   and management of their IT resources, and agency management needs to
                   ensure compliance with laws and regulations through the commitment of the
                   necessary resources.

                   Most of the issues we raised have been reported in agency-specific reports
                   and therefore we make no additional recommendations on those issues.
                   However, to better determine the total number of systems within the
                   Department, we are recommending that the OCIO, in consultation with the
                   agencies, define “system” for the Department and ensure that agencies report
                   and track systems under their control.

Recommendation No. 1

                   The OCIO should establish guidance in identifying systems within the
                   Department and its agencies.

                   Agency Response. OCIO stated that it challenged agencies, during the
                   fiscal year’s certification and accreditation effort, to develop sound
                   inventories of their systems. Throughout the certification and accreditation
                   effort, adjustments to systems inventory occurred due to contract expertise
                   establishing the appropriate scope for testing, as well as combining like
                   systems and elimination of others that have been or soon will be replaced.
                   OCIO stated that this constant attention throughout the year has resulted in a
                   sound listing of all USDA major and non-major applications and general
                   support systems. OCIO expects the systems inventory to be a baseline and
                   not static.


USDA/OIG-A/50501-1-FM                                                                    Page 13
                                        OIG Position. OIG recognizes that an inventory of systems is not static and
                                        will change as new systems are developed and old ones are no longer needed.
                                        However, defining and inventorying systems has been a problem within
                                        USDA since its initial effort during the year 2000 conversion process.
                                        OMB’s definition of a system in Circular A-130, Appendix III, has been
                                        broadly interpreted and not consistently applied within the agencies of the
                                        Department. Without clear and definite guidance from OCIO, the agencies
                                        will continue to inconsistently apply the definition of a system and make the
                                        Department’s inventory of systems only marginally effective in managing the
                                        Department’s security program. In order to reach management decision, the
                                        OCIO must provide us with how it will ensure that the Department and its
                                        agencies will consistently apply OMB’s definition of a system and ensure
                                        compliance by the agencies.




Finding 3                               Agencies Are Not Vigilant in Identifying and Mitigating System
                                        Vulnerabilities

                                        Despite the Department’s site license for vulnerability scanning software and
                                        a formal scanning policy, the agencies have not been identifying and
                                        correcting known and exploitable vulnerabilities in their systems in a timely
                                        manner. The agencies we reviewed cited varying reasons for not performing
                                        vulnerability scans, including a lack of training and guidance on how to use
                                        the tools, and had no formal policies and procedures in place to periodically
                                        use the tools and mitigate the identified vulnerabilities. As a result,
                                        significant vulnerabilities go undetected and/or uncorrected, increasing the
                                        risk that attackers, both internal and external, could compromise mission-
                                        critical IT resources and data.

                                        OMB Circular A-130 requires agencies to assess the vulnerability of
                                        information system assets, identify threats, quantify the potential losses from
                                        threat realization, and develop countermeasures to eliminate or reduce the
                                        threat or amount of potential loss. Departmental guidance requires agencies
                                        to keep an inventory of their network, to perform monthly network scans, and
                                        to develop and implement corrective action plans to address critical
                                        vulnerabilities.    In addition, DR-3140 establishes policies to ensure
                                        comprehensive security programs are in place to safeguard all information IT
                                        resources.

                                        Eleven of the twelve7 agencies we reviewed had failed to establish effective
                                        controls to identify and mitigate vulnerabilities in their systems as required
                                        by Department policy in a timely manner. In 2001, the Department, based
                                        on our audit results, purchased a Department-wide license for a commercially

7
    One agency had established effective controls over its own scanning process.

USDA/OIG-A/50501-1-FM                                                                                         Page 14
                                     available vulnerability scanning software tool.          The tool identifies
                                     vulnerabilities exploitable in operating systems that use Transfer Control
                                     Protocol/Internet Protocol, the protocol used on the global Internet, and
                                     categorizes vulnerabilities into high, medium, and low-risk.8 Some agencies
                                     we reviewed scanned their systems once every few months but not on a
                                     consistent basis, other agencies scanned their systems using one of the
                                     software’s built-in policies that does not identify all known vulnerabilities
                                     that can be exploited by attackers, and other agencies failed to scan critical
                                     components of their networks such as their routers and firewalls.

                                     As we reported last year as well, many of the vulnerabilities we discovered
                                     were not caused by poorly written software or the operating system, but
                                     rather carelessness by agency personnel to assign strong passwords to system
                                     accounts, or failure to properly configure systems settings to ensure secure
                                     operations. For instance, at one agency we found nearly 50 high and
                                     medium-risk vulnerabilities on one server alone. We later found that the IT
                                     staff had connected a development system to the production network that had
                                     not been properly configured or “hardened.”

                                     The issues raised in this report have been reported to the Department’s OCIO
                                     and in specific agency reports. Therefore, we make no additional
                                     recommendations herein.




Finding 4                            Access Controls Continue to be a Significant Weakness in the
                                     Department

                                     We again identified access control weaknesses in every agency reviewed.
                                     This occurred because agencies did not have policies and procedures in place
                                     to (1) remove user accounts when no longer needed in a timely manner, (2)
                                     periodically reconcile user accounts to current employees and contractors,
                                     and (3) assign users only those permissions needed to perform their job
                                     responsibilities. We also found inadequate controls over the physical access
                                     to computer systems and critical network components in 6 of the 12 agencies
                                     reviewed. As a result, there is reduced assurance that agencies can
                                     effectively protect their mission-critical systems and data from unauthorized
                                     modification, disclosure, loss, or impairment.

                                     NIST SP 800-12, “Introduction to Computer Security,” states that effective
                                     administration of users' computer access is essential to maintaining system
                                     security. User account management focuses on identification, authentication,

8
  High-risk vulnerabilities are security issues that allow immediate remote or local access, or immediate execution of code or commands with unauthorized
privileges. Medium-risk vulnerabilities are security issues that have the potential of granting access or allowing code execution by means of complex or
lengthy exploit procedures. Low-risk vulnerabilities are security issues that deny service or provide non-system information that could be used to
formulate structured attacks on a target, but not directly gain unauthorized access.

USDA/OIG-A/50501-1-FM                                                                                                                        Page 15
                   and access authorizations. The process of auditing and otherwise periodically
                   verifying the legitimacy of current accounts and access authorizations
                   augments this. Finally, system administrators should timely modify or
                   remove access for employees who are reassigned, promoted, or terminated or
                   who retire. Both OMB and NIST require physical access controls that restrict
                   the entry and exit of personnel from the area, such as the office building,
                   suite, data center, or room containing a local area network (LAN) server.
                   Physical access controls guard against theft, disablement, or other modification
                   of network hardware that could lead to the loss of critical data that reside on
                   that hardware. Physical access controls (such as locked server room doors)
                   ensure that only authorized personnel can physically handle and perform
                   maintenance on network servers and other critical network hardware.

                   Physical Access

                   We found physical access control weaknesses in 6 of the 12 agencies reviewed.
                   At one agency, we found an inadequate process was in place to reconcile
                   computer room access records maintained by the Office of Operations with
                   agency records. According to Office of Operation access records, 70 people
                   had physical access to the room where critical systems were located. Agency
                   records indicated only 24 individuals had authorized access to the computer
                   facility, and 8 of those 24 individuals were no longer employed by the
                   agency. Additionally, agency personnel were unable to identify 48 of the 70
                   people shown by the Office of Operations to have access to the agency
                   computer room.

                   Another agency, which conducts oversight reviews of private-sector
                   companies, allowed its computer systems to be left unattended for long
                   periods of time in unsecured places.       This allowed unauthorized users,
                   including persons subject to the agency’s oversight, to access these systems
                   and potentially modify application data without being detected.

                   Logical Access

                   In all of the 12 agencies reviewed, we identified logical access control
                   weaknesses. The agencies did not have formal procedures established to
                   timely remove users that no longer needed access to their systems, or ensure
                   that access is restricted to data that employees need to perform their job
                   functions. Logical access controls such as user names, passwords, and
                   access permissions ensure that only authorized users have access to network
                   resources from across the network, and that users are granted only the access
                   that is needed to conduct their job responsibilities. In today’s global network
                   environment, strong access controls help ensure that malicious users, both
                   internal and external to the agency’s network, do not gain access to critical
                   data. The following describes some of the logical access control weaknesses
                   identified.


USDA/OIG-A/50501-1-FM                                                                     Page 16
                        •   We found that one agency (1) had not configured its systems to limit
                            access to sensitive files to only authorized users, (2) was allowing the
                            use of generic user accounts, which hinders the agency’s ability to
                            hold users accountable for their actions, (3) had not configured the
                            system to expire users’ passwords in accordance with Department
                            regulations, (4) granted administrative privileges to an excessive
                            number of users, some of which conflicted with their job
                            responsibilities, and (5) stored critical account passwords in a central
                            file that was accessible by at least six agency personnel that did not
                            need access to these passwords to perform their job functions.

                        •   At five agencies, our review of user access permissions to data were
                            inconsistent with their job responsibilities. In one application, the
                            agency programmed its application to allow access to data based on
                            one of six different user profiles, which limited the user to certain
                            data-input screens in the application. However, this was not sufficient
                            to limit access based on job function. For instance, all users in the
                            agency’s district offices, from the office supervisor to administrative
                            support personnel, had access to add or modify data in the application.
                            In another application, approximately 47 agency personnel had access
                            to the application. Of those 47, 36 had administrative access,
                            allowing complete control to add, modify, or delete the data in the
                            application. During our fieldwork, the agency recognized that not all
                            36 persons needed this level of access and reduced it to only 9 users.

                   The issues raised in this report have been reported to the Department’s OCIO
                   and in specific agency reports. Therefore, we make no additional
                   recommendations herein.




Finding 5          Improvements in OCIO’s Oversight Role would Benefit the
                   Department

                   In the past several years, OCIO has strengthened its oversight of agencies’
                   security programs; however, improvements could be made which would
                   significantly strengthen the Department’s security posture. Specifically,
                   OCIO needs to (1) formalize its tracking system for USDA cyber security
                   incidents to ensure timely followup and resolution, and (2) increase the
                   number and frequency of its own agency reviews. Despite its efforts over the
                   past several years, OCIO’s inability to strengthen its oversight and
                   enforcement role has hindered its ability to effectively manage the
                   Department’s security program.

                   The Clinger-Cohen Act requires the head of executive agencies to ensure that
                   the information security policies, procedures, and practices of the executive
USDA/OIG-A/50501-1-FM                                                                      Page 17
                   agency are adequate. The Act established the CIO in the Department and
                   requires it to monitor the performance of USDA’s IT programs. In addition,
                   FISMA requires the CIO to (1) ensure that the Department effectively
                   implements and maintains information security policies, procedures, and
                   control techniques; (2) evaluate the effectiveness of the information security
                   program, by periodically testing and evaluating information security controls
                   and techniques; and (3) implement appropriate remedial actions based on that
                   evaluation. Finally, FISMA also requires the Department to report to OMB
                   and Congress on the results of the above tests and evaluations, and the
                   progress of remedial actions.

                   Tracking of Cyber Security Incidents

                   For the past 4 years, OCIO has been operating the Department’s intrusion
                   detection system that alerts OCIO officials to potentially threatening or
                   destructive intrusions to the Department’s networks and systems. This
                   process has served the Department well by identifying the presence of
                   Internet worms, use of software to download copyright or inappropriate
                   materials, and potential hacking attempts on critical systems. However,
                   despite our prior recommendation, the Department’s OCIO has not
                   formalized its tracking of cyber-related incidents.

                   As the OCIO identified potential threats, OCIO personnel reacted by
                   informing the affected agency of the incident. OCIO’s policy requires that
                   the agency prepare and submit an incident report which describes the nature
                   of the incident and what actions were taken to correct the effects of the
                   incident. Our review showed that OCIO, while timely communicating
                   potential threats to agency personnel, was not ensuring that the agency
                   responded quickly to the incident or timely prepared an incident report. Our
                   review shows that only if the Department’s intrusion detection system
                   detected a repeat instance of the threat did the OCIO quickly initiate followup
                   with the agency.

                   The Department identified 179 security incidents during the fiscal year
                   through August 20, 2004. As shown in the chart below, incidents were not
                   always closed by the agencies in a timely manner.




USDA/OIG-A/50501-1-FM                                                                    Page 18
                                            Status of Incidents




                                                                    34%
                                        45%




                                                              21%


                                    Closed 0 - 30 days after incident
                                    Closed 30 - 90 days after incident
                                    Closed > 90 days or unresolved > 90 days



                   Despite our prior recommendation to implement a formal incident tracking
                   system, the OCIO has tracked cyber security incidents by using one OCIO
                   employee’s e-mail. While this tracking method may be conducive to
                   communicating incidents with agency personnel, it is not an effective method
                   to track the timely followup, resolution, and reporting by the agencies.

                   Increasing Agency Reviews

                   In the past few years, OCIO has decreased the number of its own reviews of
                   agencies’ security programs. With limited resources, the OCIO has directed
                   its efforts toward issuing policy and initiating Department-wide efforts such
                   as the certification and accreditation process. While these activities are
                   critical components of OCIO’s oversight role, we believe that the lack of
                   OCIO’s onsite presence has contributed, in part, to agencies not:

                        •   Preparing security planning documentation and implementing security
                            policies;
                        •   implementing effective vulnerability scanning and mitigation efforts;
                        •   enforcing access control policies;
                        •   deploying patch management software; and
                        •   preparing timely, complete, and supportable capital planning and
                            investment control documentation.

                   While OIG has played a significant role in identifying these issues, OIG can
                   only provide periodic independent assessments of agency operations.
                   Ultimately it is each agency’s and the Department’s management’s
                   responsibility for ensuring that internal controls, including information
                   security controls, are adequate and effectively implemented on an ongoing
                   basis. We believe that OCIO needs to increase its own reviews of agency


USDA/OIG-A/50501-1-FM                                                                    Page 19
                   operations to effectively oversee and administer the Department’s overall
                   security program.

Recommendation No. 2

                   OCIO should implement a formal tracking system for cyber security
                   incidents to ensure timely followup, resolution, and reporting.

                   Agency Response. OCIO concurred with this recommendation and has
                   taken the necessary steps to procure and deploy a commercial off the shelf
                   package for tracking cyber security incidents. This new tracking system will
                   replace the one currently in use in the Department and will permit an
                   effective method to track the timely followup, resolution and reporting by the
                   agencies and the Department. The new tracking system will be implemented
                   no later than October 30, 2004.

                   OIG Response. We concur with OCIO’s management decision.




USDA/OIG-A/50501-1-FM                                                                   Page 20
Scope and Methodology
                                 The scope of our review was Department-wide and agency audits relating to IT
                                 completed during fiscal year 2004 through August 31, 2004. We conducted this
                                 audit in accordance with Government Auditing Standards.

                                 Fieldwork for this audit was performed at the Department OCIO and three
                                 selected agencies from June to August 2004. In addition, the results of IT
                                 control testing and compliance with laws and regulations performed by contract
                                 auditors at three additional agencies are included in this report. Further, the
                                 results of our most recent general control and application control reviews were
                                 considered and incorporated into this report. In total, our fiscal year 2004 audit
                                 work covered 12 agencies and staff offices, which operate approximately 229 of
                                 the estimated 4609 general support and major application systems within the
                                 Department.

                                 To accomplish our audit objectives, we performed the following procedures:

                                      •     Consolidated the results and issues from our prior IT security audit work.
                                            Our audit work consisted primarily of audit procedures found in the
                                            GAO Financial Information System Control Audit Manual (FISCAM),

                                      •     evaluated OCIO’s progress in implementing recommendations to correct
                                            material weaknesses in prior OIG and GAO audit reports, and

                                      •     gathered the necessary information to address the specific reporting
                                            requirements outlined in OMB’s Memorandum No. M-04-25, dated
                                            August 23, 2004.




9
  The total number of systems within the Department is based on OCIO’s Certification and Accreditation update spreadsheet dated August 20, 2004. As
presented in Finding No. 2, OCIO’s data is agency-supplied and not verified or audited. Therefore we have no assurance that these figures are accurate.
The number of systems in the 12 agencies in our review is based on independent auditor verification and may not be consistent with the number of systems
reported by OCIO for Certification and Accreditation purposes.

USDA/OIG-A/50501-1-FM                                                                                                                       Page 21
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                           Exhibit A – Page 1 of 15


Section A: System Inventory and IT Security Performance
A.1.        By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the
            total number of contractor operations or facilities. The agency CIOs and IG's shall each identify the total number that they
            reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.

A.1.a.      FY04 Programs
            There are approximately 26 agency and staff offices within the US Department of Agriculture. The
            agencies we reviewed, total number of systems identified in each of those agencies, and the number of
            systems we selected for review are shown in section A.1.b.

A.1.c.      FY04 Contractor Operations or Facilities
            Out of the 12 agencies we reviewed, we identified one agency that used three contractors and one
            subcontractor to support a major Department application that has not been certified and accredited. The
            application contractor developed and maintains the application. The facility contractor stores agency-
            owned servers and other hardware on its property in a secure and protected room. The hardware
            maintenance contractor provides maintenance functions for hardware switch configuration and supports the
            firewalls used to protect the application. The firewall subcontractor manages the firewall and intrusion
            detection systems.

A.2.        For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major
            agency operating component) in the format provided below.
                                      A.1.                                                    A.2.
                                                                         A.2.b.              A.2.c.
                                                                 Number of systems         Number of
                                                      A.2.a.        with security      systems for which     A.2.d.           A.2.e.
                                                    Number of        control costs      security controls  Number of        Number of
                                                     systems     integrated into the    have been tested systems with a systems for which
                                   A.1.b.          certified and   life cycle of the    and evaluated in contingency contingency plans
         Bureau Name           FY 04 Systems        accredited          system.           the last year       plan       have been tested
                             Total #10 # Rev.11       Total #           Total #              Total #           Total #            Total #
1. AMS                         15            1           0                  -                   0                 -                  -
2. APHIS                        36           1           0                  -                   -                 -                  -
3. CCC                         --12          7           0                 0                    0                0                   0
4. CSREES                        4           1           1                  -                   0                0                   0
5. DA                            7           1           1                 1                    2                1                   0
6. FSA                          26           3           0                 0                    0                1                   0
7. FSIS                         12           1           0                 0                    0                0                   0
8. FS                           66           29          7                 66                   0                15                  0
9. NFC                          30            6          0                  -                   -                 -                  -
10. NITC                        11           4           0                  -                   -                1                   1
11. NRCS                         3           2           0                 0                    0                0                   0
12. RMA                         19           3           0                  -                   -                 -                  -
                    Totals     229           59          9                 67                   2                18                  1
Note 1: Dashes indicate that the information was not within the scope of our review.
Note 2: OIG-reported totals will differ from OCIO-reported totals due to the sampling of agencies we reviewed and to the timing of our
fieldwork.



10
   Based on independent auditor verification and may not be consistent with the number of systems reported by OCIO.
11
   Reviews conducted from October 1, 2003 through August 31, 2004.
12
   See FSA for total number of systems.

USDA/OIG-A/50501-1-FM                                                                                                                       Page 22
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                 Exhibit A – Page 2 of 15

A.3.   Evaluate the degree to which the following statements reflect the status in your agency, by
       choosing from the responses provided in the drop down menu.              If appropriate or
       necessary, include comments in the Comment area provided below.

       a. Agency program officials and the agency CIO have used appropriate methods to
          ensure that contractor provided services or services provided by another agency for
          their program and systems are adequately secure and meet the requirements of
          FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

          USDA has employed contractors in many aspects of its system operations. Contractors are
          used for network administration, system development, and as system administrators. In
          conducting our agency reviews, testing of contractor operations has been limited to access
          controls, security clearances, security awareness training, and oversight by the agencies of
          contractor activities. Based on our reviews, we do not believe the agencies have adequately
          employed methods to ensure that contractor provided services meet the requirements of the
          Security Act, OMB, and NIST guidelines. However, to the extent that agencies use the
          Department’s centralized data centers, our reviews help ensure that those centers take the
          necessary actions to meet the requirements of the Security Act, OMB, and NIST guidelines.

       b. The reviews of programs, systems, and contractor operations or facilities, identified
          above, were conducted using the NIST self-assessment guide, 800-26.

          Agencies primarily use OIG audits to identify weaknesses in their management and
          oversight of contractors. Agencies also rely on our reviews of the Department’s centralized
          data centers to ensure that the Security Act, OMB, and NIST guidelines are followed by
          those centers. Under FISMA, agencies use the NIST self-assessment guide to identify
          those areas where they are not compliant with federally mandated guidelines.

       c. In instances where the NIST self-assessment guide was not used to conduct reviews,
          the alternative methodology used addressed all elements of the NIST guide.

          For conducting FISMA self-assessments, we found that the Department and its agencies
          generally follow NIST Special Publication 800-26, however as we reported in Finding No.
          2, not all agencies have followed NIST guidance when preparing security plans, risk
          assessments, and disaster recovery plans.

       d. The agency maintains an inventory of major IT systems and this inventory is updated
          at least annually.

          The Department does not have a reliable inventory of applications and general support
          systems from which to manage Department-wide IT security. The Department relies on


USDA/OIG-A/50501-1-FM                                                                          Page 23
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                 Exhibit A – Page 3 of 15

        agencies to provide a comprehensive list; however, with limited resources, OCIO is unable
        to verify the accuracy or reliability of those agency-provided inventories. (See Finding No.
        2.)

     e. The OIG was included in the development and verification of the agency’s IT system
        inventory.

        OIG was not involved in the development and verification of agency IT system inventory.

     f. The OIG and the CIO agree on the total number of programs, systems, and contractor
        operations or facilities.

        While we agree that OCIO’s current list of major applications provides a starting point, we
        believe that the errors we found (See Finding No. 2) support the need to have a well-
        established definition of a system and ensure that agencies are reporting their systems in
        accordance with that definition. Further, we believe that the OCIO needs to be fully aware
        of all applications and general support systems that reside on the Department’s network to
        ensure that agencies are in compliance with OMB and FISMA requirements, and to
        effectively manage the Department’s security program. For example, in preparation of our
        FY 2004 nationwide audit of application controls, we selected seven systems from the
        OCIO’s list of major applications dated December 2003. Our review disclosed that three of
        the seven applications we selected were scheduled to be replaced or no longer used by the
        end of the fiscal year, one application was in the initial stages of development and therefore
        not far enough along for the certification process, and one system was an ad-hoc database
        containing historical data no longer used by the agency but “scheduled” to be brought back
        on-line sometime during the year. Further, we noted that between December 2003 and
        August 20, 2004, OCIO provided us with at least four different lists of systems or
        certification progress updates showing the total number of departmental systems ranging
        between 594 and 460.

     g. The agency CIO reviews and concurs with the major IT investment decisions of
        bureaus (or major operating components) within the agency.

        The Department has a comprehensive Capital Planning and Investment Control process in
        place where each agency submits major IT investment information for review and approval
        by the Department’s CIO.




USDA/OIG-A/50501-1-FM                                                                          Page 24
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                     Exhibit A – Page 4 of 15

            h. The agency has begun to assess systems for e-authentication risk.

                While the Department has begun to use e-authentication on its systems13 and has issued
                guidance regarding the use of Public Key Infrastructure (PKI) technology,14 OIG has only
                performed limited e-authentication system assessments during our reviews. We have plans
                to expand our audit efforts into the Department’s e-authentication and e-government
                initiatives during fiscal year 2005.

            i. The agency has appointed a senior agency information security officer that reports
               directly to the CIO.

                The Department has appointed a CIO to oversee the security program within the
                Department. Our reviews at the agency level have shown that agencies have identified their
                own CIO and ISSPM to manage their individual security programs. However, as noted in
                Finding No. 1 of the Findings and Recommendations section of this report, we have found
                that agency managers have not always committed to or maintained involvement in their
                security programs. As a result, the Department and its agencies are not compliant with
                OMB Circular A-130 and other federally mandated security guidelines.

     Section B: Identification of Significant Deficiencies15
     B.1.     By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under
              existing law. Describe each on a separate row, and identify which are repeated from FY03. In addition, for each significant
              deficiency, indicate whether a POA&M has been developed. Insert rows as needed.
                                       Number                                                                                     POA&M
       Bureau          Total        Repeated from                                                                                developed?
        Name         Number             FY 0316                Identify and Describe Each Significant Deficiency                  Yes or No
     AMS                 4               Yes            Inadequate security plans                                                 No
                                         Yes            Systems not certified and accredited                                      No
                                         Yes            System scans not performed                                                No
                                         Yes            Inadequate logical controls                                               No

     APHIS               4               Yes            Systems not certified and accredited                                      No
                                         Yes            Security awareness training not completed                                 No
                                         Yes            Inadequate logical controls                                               No
                                         Yes            System scans not performed                                                No

     CCC                 -                              See FSA below.

     CSREES              8                No            Inadequate risk assessments                                               No
                                          No            Inadequate security plans                                                 No
                                                        Inadequate contingency plans and/or no testing of
                                          No            plan                                                                     Yes
                                          No            Security awareness training not completed                                No

13
    Agencies are currently in the process of having their users subscribe to use Gov Online Learning Center (www.golearn.gov), which requires e-
authentication.
14
   In January and March 2002, the Department issued guidance regarding the use of Public Key Infrastructure (PKI) Technology.
15
   All OIG-reported weaknesses are, in our opinion, significant deficiencies.
16
   Deficiency repeated from a prior year’s audit but may not have been from fiscal year 2003 review.

USDA/OIG-A/50501-1-FM                                                                                                                  Page 25
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                   Exhibit A – Page 5 of 15

                                          Number
                                          Repeated                                                                     POA&M
          Bureau           Total          from FY                                                                     developed?
           Name           Number             0317              Identify and Describe Each Significant Deficiency       Yes or No
       CSREES –
       Cont’d                                No          Systems not certified and accredited                            Yes
                                             No          Inadequate physical controls                                    No
                                             No          Inadequate logical controls                                     No
                                             No          System scans not performed                                      No

       DA                   10              Yes          Inadequate risk assessments                                     Yes
                                            Yes          Inadequate security plans                                       No
                                                         Inadequate contingency plans and/or no testing of
                                            Yes          plan                                                            Yes
                                            Yes          Security awareness training not completed                       No
                                            Yes          Systems not certified and accredited                            No
                                            No           Background investigations not performed                         No
                                            Yes          Inadequate physical controls                                    No
                                            Yes          System scans not performed                                      No
                                            Yes          Inadequate patch management                                     No
                                            Yes          Inadequate logical controls                                     No

       FSA                  11              No           Inadequate risk assessments                                     Yes
                                            Yes          Inadequate security plans                                       Yes
                                                         Inadequate contingency plans and/or no testing of
                                            Yes          plan                                                            Yes
                                            Yes          Security awareness training not completed                       Yes
                                            No           Systems not certified and accredited                            Yes
                                            No           Background investigations not performed                         Yes
                                            Yes          Inadequate physical controls                                    Yes
                                            Yes          System scans not performed                                      Yes
                                            Yes          Inadequate patch management                                     Yes
                                            Yes          Inadequate logical controls                                     Yes
                                                         Capital asset plans not timely prepared and/or do not
                                             No          include required elements                                        No

       FSIS                  8              Yes          Inadequate risk assessments                                      No
                                                         Inadequate contingency plans and/or no testing of
                                            Yes          plan                                                             No
                                            Yes          Systems not certified and accredited                             No
                                            Yes          Inadequate physical controls                                     No
                                            Yes          Inadequate logical controls                                      No
                                            No           System scans not performed                                       No
                                            No           Inadequate patch management                                      No
                                                         Inadequate system documentation and change
                                             No          management                                                       No

       FS                    9              Yes          Inadequate risk assessments                                      No


17
     Deficiency repeated from a prior year’s audit but may not have been from fiscal year 2003 review.

USDA/OIG-A/50501-1-FM                                                                                                              Page 26
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                   Exhibit A – Page 6 of 15

                                       Number                                                                          POA&M
         Bureau          Total       Repeated from                                                                    developed?
          Name          Number          FY 0318                Identify and Describe Each Significant Deficiency       Yes or No
       FS - Cont’d                         Yes           Inadequate security plans                                        No
                                                         Inadequate contingency plans and/or no testing of
                                           Yes           plan                                                             No
                                           Yes           Security awareness training not completed                        No
                                           Yes           Systems not certified and accredited                             No
                                           No            Background investigations not performed                          No
                                           Yes           Inadequate physical controls                                     No
                                           No            Inadequate patch management                                      No
                                           Yes           Inadequate logical controls                                      No

       NFC                  3              Yes           Systems not certified and accredited                            Yes
                                           Yes           Inadequate logical controls                                     No
                                                         Inadequate system documentation and change
                                           Yes           management                                                       No

       NITC                 8              No            Inappropriate/Unlicensed software used                           No
                                           Yes           Inadequate risk assessments                                      No
                                           Yes           Inadequate security plans                                        No
                                                         Inadequate contingency plans and/or no testing of
                                           Yes           plan                                                             No
                                           Yes           Systems not certified and accredited                             No
                                           No            System scans not performed                                       No
                                           Yes           Inadequate logical controls                                      No
                                                         Inadequate system documentation and change
                                           Yes           management                                                       No

       NRCS                10              Yes           Inadequate risk assessments                                      No
                                           Yes           Inadequate security plans                                        No
                                                         Inadequate contingency plans and/or no testing of                No
                                           Yes           plan
                                           No            Systems not certified and accredited                             No
                                           No            System scans not performed                                       No
                                           No            Inadequate patch management                                      No
                                                         Capital asset plans not timely prepared and/or do not
                                           No            include required elements                                        No
                                                         Inadequate system documentation and change
                                           No            management                                                       No
                                           Yes           Inadequate logical controls                                      No
                                           Yes           Inadequate physical controls                                     No

                                                         Inadequate contingency plans and/or no testing of
          RMA               5              Yes           plan                                                             No
                                           Yes           Security awareness training not completed                        No



18
     Deficiency repeated from a prior year’s audit but may not have been from fiscal year 2003 review.

USDA/OIG-A/50501-1-FM                                                                                                              Page 27
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                   Exhibit A – Page 7 of 15

                                       Number                                                                          POA&M
          Bureau         Total       Repeated from                                                                    developed?
           Name         Number          FY 0319                Identify and Describe Each Significant Deficiency       Yes or No
       RMA -
       cont’d                              Yes           Inadequate logical controls                                      No
                                                         Inadequate system documentation and change
                                           Yes           management                                                       No
                                           Yes           System scans not performed                                       No

                                        54 (Yes)                                                                       15 (Yes)
       Totals              80           26 (No)                                                                        65 (No)
                                      67.5% (Yes)                                                                     19% (Yes)
                                      32.5% (No)                                                                      81% (No)


Section C: OIG Assessment of the POA&M Process

C.1.            Through this question, and in the format provided below, assess whether the agency has
                developed, implemented, and is managing an agency-wide plan of action and milestone
                (POA&M) process. This question is for IGs only. Evaluate the degree to which the
                following statements reflect the status in your agency by choosing from the responses
                provided in the drop down menu. If appropriate or necessary, include comments in the
                Comment area provided below.

                a.      Known IT security weaknesses, from all components, are incorporated into the
                        POA&M.

                        Overall the Department has developed and implemented a process to manage the
                        Department-wide consolidation and reporting of POA&M weaknesses. However,
                        agencies are not always supplying all of the information requested by OMB such as the
                        source of the funds to correct the weakness. We determined that not all known IT
                        security weaknesses were included in agencies POA&Ms. At the time of our review,
                        agencies were still completing risk assessments so not all weaknesses identified by
                        those risk assessments had been reported in the POA&Ms.

                b.      Program officials develop, implement, and manage POA&Ms for systems they own
                        and operate (systems that support their program or programs) that have an IT
                        security weakness.

                        The Department and its agencies have not prepared POA&Ms for each of its systems.
                        We attribute this, in part, to a lack of risk assessments and security plans; therefore, not
                        all security weaknesses have been identified for reporting purposes. In fiscal year 2004,
                        the Department implemented a Department-wide initiative to certify and accredit all
                        major applications and general support systems of which assessing risks is part of this
                        process. However, the effort is far from complete. (See Finding No. 2.)
19
     Deficiency repeated from a prior year’s audit but may not have been from fiscal year 2003 review.

USDA/OIG-A/50501-1-FM                                                                                                              Page 28
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                  Exhibit A – Page 8 of 15

     c.    Program officials report to the CIO on a regular basis (at least quarterly) on their
           remediation progress.

           Our review disclosed that not all agencies report complete POA&M data on a timely
           basis. The agencies we reviewed did not have controls in place to ensure that POA&M
           data reported to the Department’s CIO was complete and accurate.

     d.    CIO develops, implements, and manages POA&Ms for every system they own and
           operate (a system that supports their program or programs) that has an IT
           security weakness.

           The Department and its agencies have not prepared POA&Ms for each of its systems.
           We attribute this, in part, to a lack of risk assessments and security plans; therefore, not
           all security weaknesses have been identified for reporting purposes. In fiscal year 2004,
           the Department implemented a Department-wide initiative to certify and accredit all
           major applications and general support systems of which assessing risks is part of this
           process. However, the effort is far from complete. (See Finding No. 2.)

     e.    CIO centrally tracks, maintains, and reviews POA&M activities on at least a
           quarterly basis.

           The Department OCIO maintains a tracking system that the agencies use to track all
           POA&M weaknesses and milestones on a quarterly basis. However, as stated in
           question C.1.c., not all agencies not have controls in place to ensure that the reported
           information is complete and accurate.

     f.    The POA&M is the authoritative agency and IG management tool to identify and
           monitor agency actions for correcting information and IT security weaknesses.

           We do not believe the Department’s centralized tracking system of POA&M
           weaknesses has matured to the level of being an authoritative agency and IG
           management tool. Our reviews of agency-prepared POA&Ms have found that not all
           weaknesses are identified, and that not all of the information required by OMB is
           properly reported. Therefore, OIG has not relied on POA&Ms as an effective
           management tool for its reviews.

     g.    System-level POA&Ms are tied directly to the system budget request through the
           IT business case as required in OMB budget guidance (Circular A-11).

           Not all agencies have prepared POA&Ms for every system, and in many cases, the
           source of security funds are not captured in POA&M reports. Therefore, we cannot say


USDA/OIG-A/50501-1-FM                                                                           Page 29
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                Exhibit A – Page 9 of 15



             with certainty whether all POA&Ms are tied to the system budget request as required by
             OMB Circular A-11.

      h.     OIG has access to POA&Ms as requested.

             OIG has access to POA&M records.

      i      OIG findings are incorporated into the POA&M process.

             OIG findings are not always incorporated into the POA&M process. Officials at the
             agencies we reviewed stated that the certification and accreditation process, which is
             scheduled to be completed September 30, 2004, would eliminate the POA&M weakness
             identified in OIG’s reports. OIG does not agree with this assessment since many of the
             weaknesses we identified require long-term solutions that require to be tracked with the
             POA&M process.

      j.     POA&M process prioritizes IT security weaknesses to help ensure that significant
             IT security weaknesses are addressed in a timely manner and receive appropriate
             resources.

             POA&M weaknesses are not prioritized; however, agencies use the POA&Ms to
             identify milestones accomplished toward meeting the necessary actions to correct the
             weaknesses.

C.2   OIG Assessment of the Certification and Accreditation Process

      Section C should only be completed by the OIG. OMB is requesting IGs to assess the
      agency’s certification and accreditation process in order to provide a qualitative
      assessment of this critical activity. This assessment should consider the quality of the
      Agency’s certification and accreditation process. Any new certification and accreditation
      work initiated after completion of NIST Special Publication 800-37 should be consistent
      with NIST Special Publication 800-37. This includes use of the FIPS 199, “Standards for
      Security Categorization of Federal Information and Information Systems,” to determine
      an impact level, as well as associated NIST documents used as guidance for completing
      risk assessments and security plans. Earlier NIST guidance is applicable to any
      certification and accreditation work completed or initiated before finalization of NIST
      Special Publication 800-37. Agencies were not expected to use NIST Special Publication
      800-37 as guidance before it became final.

      At the time of our fieldwork, the agencies we reviewed had not completed system certifications
      and accreditations on their major applications or general support systems. Agencies officials

USDA/OIG-A/50501-1-FM                                                                         Page 30
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                   Exhibit A – Page 10 of 15

       informed us that they are completing the certifications in accordance with the Department’s
       directives and intend to have this process completed by September 30, 2004. Despite the
       longstanding requirement by OMB to complete this certification and accreditation process prior
       to system implementation, the requirement has been largely ignored and not enforced.
       Department CIO officials have informed us that they are committed to ensuring that the
       certification and accreditation process is fully implemented into every agency’s system
       development lifecycle process. (See Finding No. 2.)

Section D

D.1.   First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For
       D.1.a-f, identify whether agencywide security configuration requirements address each
       listed application or operating system (Yes, No, or Not Applicable), and then evaluate the
       degree to which these configurations are implemented on applicable systems. For
       example: If your agency has a total of 200 systems, and 100 of those systems are running
       Windows 2000, the universe for evaluation of degree would be 100 systems. If 61 of those
       100 systems follow configuration requirement policies, and the configuration controls are
       implemented, the answer would reflect "yes" and "51-70%". If appropriate or
       necessary, include comments in the Comment area provided below.

D.1.   Has the CIO implemented agencywide policies that require detailed specific security
       configurations and what is the degree by which the configurations are implemented?

              D.1.a.   Windows XP Professional
              D.1.b.   Windows NT
              D.1.c.   Windows 2000 Professional
              D.1.d.   Windows 2000
              D.1.e.   Windows 2000 Server
              D.1.f.   Windows 2003 Server
              D.1.g.   Solaris
              D.1.h.   HP-UX
              D.1.i.   Linux
              D.1.j.   Cisco Router IOS
              D.1.k.   Oracle
              D.1.l.   Other. Specify:
       OCIO has provided the agencies security assessment guidelines for the Windows , Solaris, HP-
       UX, and Linux operating systems. In addition, the Department has similar security assessment
       guidelines for mainframe, classified systems, personal electronic devices (PED),
       telecommunications, Web Farms, and AS400s. The Department has an ongoing initiative to
       prepare specific security configuration policies to be used as suggested baselines for each of the
       above operating environments.


USDA/OIG-A/50501-1-FM                                                                             Page 31
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                Exhibit A – Page 11 of 15



D.2.   Answer Yes or No, and then evaluate the degree to which the configuration requirements
       address the patching of security vulnerabilities. If appropriate or necessary, include
       comments in the Comment area provided below.

       D.2.   Do the configuration requirements implemented above in D.1.a-f., address
              patching of security vulnerabilities?

              The OCIO has issued guidance on patch and configuration management and has
              encouraged agencies to deploy patch management software. However, few agencies
              have taken advantage of this software to manage patches. During our reviews, we
              identified system vulnerabilities by performing tests using the scanning product
              available to all agencies for their use. Our scans identified vulnerabilities that would
              have been mitigated if agencies had timely applied patches or if agencies would have
              vigilantly used the Department-provided scanning software to identify and timely
              mitigate vulnerabilities on their systems.

Section E: Incident Detection and Handling Procedures

E.1.   Evaluate the degree to which the following statements reflect the status at your agency. If
       appropriate or necessary, include comments in the Comment area provided below.

       a.     The agency follows documented policies and procedures for reporting incidents
              internally.

              The Department’s OCIO has a comprehensive incident response program in place. It
              operates effectively at the Department level. The program includes intrusion detection
              capability on the Department’s backbone network and communication with the United
              States Computer Emergency Readiness Team and law enforcement authorities.
              However, we found that the Department’s CIO has not developed an effective tracking
              system for security incidents to ensure that agencies timely address and report on
              security incidents. (See Finding No. 5.)

         b.   The agency follows documented policies and procedures for external reporting to
              law enforcement authorities.

              See response for E.1.a. above.

         c.   The agency follows defined procedures for reporting to the United States
              Computer Emergency Readiness Team (US-CERT).

              See response for E.1.a. above.


USDA/OIG-A/50501-1-FM                                                                          Page 32
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                          Exhibit A – Page 12 of 15

E.2. Incident Detection Capabilities.

             a.       How many systems underwent vulnerability scans and penetration tests in FY04?

                      At 11 of the 1220 agencies we reviewed, the agencies had failed to establish effective
                      controls to timely identify and mitigate vulnerabilities on their systems as required by
                      Department policy. In 2001, the Department, based on our audit results, purchased a
                      Department-wide license for a commercially available vulnerability scanning software
                      tool. The tool identifies vulnerabilities exploitable in operating systems that use
                      TCP/IP, the protocol used on the global Internet, and categorizes vulnerabilities into
                      high, medium, and low risk.21 Some agencies we reviewed scanned their systems once
                      every few months but not on a consistent basis, other agencies scanned their systems
                      using one of the software’s built-in policies that does not identify all known
                      vulnerabilities that can be exploited by attackers, and other agencies failed to scan
                      critical components of their networks such as their routers and firewalls. (See Finding
                      No. 3.)

             b.       Specifically, what tools, techniques, technologies, etc., does the agency use to
                      mitigate IT security risk?

                      Agencies have sporadically employed various tools, techniques, and technologies to
                      mitigate IT security risks including ISS Internet Scanner, Bindview, Nessus, Patch
                      Link, Microsoft Baseline Analyzer, McAfee Virus Protection Software, and Symantec
                      AntiVirus.




20
  One agency had established effective controls over its own scanning process.
21
   High-risk vulnerabilities are security issues that allow immediate remote or local access, or immediate execution of code or commands with
unauthorized privileges. Medium-risk vulnerabilities are security issues that have the potential of granting access or allowing code execution by means of
complex or lengthy exploit procedures. Low-risk vulnerabilities are security issues that deny service or provide non-system information that could be used
to formulate structured attacks on a target, but not directly gain unauthorized access.

USDA/OIG-A/50501-1-FM                                                                                                                         Page 33
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                                                                         Exhibit A – Page 13 of 15



     Section F: Incident Reporting and Analysis
     F.1. For each category of incident listed: identify the total number of successful incidents
           in FY04, the number of incidents reported to US-CERT, and the number reported to
           law enforcement. If your agency considers another category of incident type to be
           high priority, include this information in category VII, "Other". If appropriate or
           necessary, include comments in the Comment area provided below.
     F.2. Identify the number of systems affected by each category of incident in FY04. If
          appropriate or necessary, include comments in the Comment area provided below.
                                                                                                                                        F.2.c.
                                                                                                                                    How many
                                                                                                                                     successful
                                                                                                     F.2.a.         F.2.b.            incidents
                                                                                                    Systems       Systems23        occurred for
                                                                                  F.1.c.             with          without             known
                                                F.1.a.           F.1.b.        Reported to         Complete       complete       vulnerabilities for
                                              Reported        Reported to          Law             and up to      and up to      which a patch was
                                              Internally       FedCIRC         Enforcement        date C&A22      date C&A           available?
      I. Root Compromise                               39               28                  3               0           162                        9
     II. User Compromise                               45                9                  9               0            44                        0
     III. Denial of Service Attack                      2                1                  0               0             4                        1
     IV.Website Defacement                              1                1                  0               0             1                        0
      V. Detection of Malicious Code                   10                5                  1               1            10                        4
     VI. Successful Virus/Worm
     Introduction                                     79                53                  1               0           525                      55
     VII. Other                                        3                 0                  1               0             3                       0
                                 Totals:             179                97                 15               1           749                      69
     Incidents reported from October 1, 2003 through August 20, 2004.


Section G: Training

 G.1. Has the agency CIO ensured security training and awareness of all employees, including
      contractors and those employees with significant IT security responsibilities?       If
      appropriate or necessary, include comments in the Comment area provided below.

            a.         Total number of employees in FY04

                       As of August 29, 2004, the Department has 116,603 employees.24 The Department
                       does not have a central database of all contractors. Therefore, an accurate count of
                       contractors is not available.

22
   To determine if the system was certified and accredited, OIG determined if the agencies’ local area networks were certified and accredited.
23
   These numbers represent the number of IP addresses reported as being affected by the incident. Because the incident is reported by IP address, OIG was
not able to identify the systems.
24
   Based on National Finance Center (NFC) payroll system data.

USDA/OIG-A/50501-1-FM                                                                                                                        Page 34
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                               Exhibit A – Page 14 of 15

     b.    Employees that received IT security awareness training in FY04, as described in
           NIST Special Publication 800-50.

           Agencies we reviewed had processes and resources in place to provide its employees
           with security awareness training, and that system and network administrators have a
           means to acquire specialized training relating to their responsibilities; however,
           agencies had not established adequate controls to ensure all employees received the
           necessary training. In one agency, OIG found that almost all employees had received
           security awareness training. However, in another agency only about 51 percent of the
           employees took security awareness training, and the agency could not provide an up to
           date listing of contractors, contractor training, or contractor background checks because
           no controls had been put into place to track these individuals. The OCIO annually
           reports on compliance with the Federal Information Security Management Act
           (FISMA) as of September 30 and, in some cases such as computer security awareness
           training and system certification and accreditation, completes, or documents the
           completion, of a significant amount of the required actions in the month of September.
           As such, the Department and its agencies may have implemented controls or completed
           corrective actions that, due to the timing of our fieldwork, may not be reflected in this
           report.

     c.   Total number of employees with significant IT security responsibilities.

          Not all agencies have established controls to ensure that all employees with significant IT
          security responsibilities are provided training related to those responsibilities. Based on
          our FISMA review at three USDA agencies, one agency had not identified employees
          with significant IT responsibilities. For the other two agencies, there are 501 employees
          with significant responsibilities. We found that only 165 of the 501 received specialized
          training. These three agencies have a total of 36,112 employees.

     d.   Employees with significant security responsibilities that received specialized
          training, as described in NIST Special Publications 800-50 and 800-16

          See G.1.c. response above.

     e.   Briefly describe training provided.

          The reviews we conducted showed that OCIO and agencies had various training
          initiatives. Provided and/or planned training included:

           •   Certification and accreditation training,
           •   Responsibilities of agency Information System Security Program Managers
               (ISSPMs),

USDA/OIG-A/50501-1-FM                                                                         Page 35
Exhibit A – OMB Reporting Requirements and OIG Position
                                                                              Exhibit A – Page 15 of 15


            •   General Security Awareness,
            •   USDA Security Awareness course (available August 4, 2004),
            •   Securing Local Area Networks,
            •   Managing Network Security,
            •   Identifying Viruses,
            •   Fundamentals of Internet Security, and
            •   An Executive Briefing Handbook for Senior Executives that includes rules,
                regulations, references, and executive briefing training material.

     f.     Total costs for providing IT security training in FY04 (in $'s)

            This information is not readily available for all agencies. For the three agencies we
            reviewed, one agency had not determined these costs. For the other two agencies,
            $222,000 was spent on IT security training to its employees.

 G.2. Does the agency explain policies regarding peer-to-peer file sharing in IT security
      awareness training, ethics training, or any other agency wide training?

     Our reviews focus on whether or not agencies have controls in place to provide security
     awareness training to all employees, and whether those with significant IT security
     responsibilies are provided specialized training. Our reviews, up to now, have not included a
     comprehensive review of the content of the security training offered or provided by each
     agency.




USDA/OIG-A/50501-1-FM                                                                        Page 36
Exhibit B – OCIO’s Response to the Draft Report
                                                  Exhibit B – Page 1 of 5




USDA/OIG-A/50501-1-FM                                          Page 37
Exhibit B – OCIO’s Response to the Draft Report
                                                  Exhibit B – Page 2 of 5




USDA/OIG-A/50501-1-FM                                          Page 38
Exhibit B – OCIO’s Response to the Draft Report
                                                  Exhibit B – Page 3 of 5




USDA/OIG-A/50501-1-FM                                          Page 39
Exhibit B – OCIO’s Response to the Draft Report
                                                  Exhibit B – Page 4 of 5




USDA/OIG-A/50501-1-FM                                          Page 40
Exhibit B – OCIO’s Response to the Draft Report
                                                  Exhibit B – Page 5 of 5




USDA/OIG-A/50501-1-FM                                          Page 41
